WAIVER
Supreme Court of the United States
No. 20-5331
Michael Alan Bruzzone
(Petitioner)

v.

Intel Corporation, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
o

Please enter my appearance as Counsel of Record fOr all reSPondents.

X

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

ARM, Inc.

I am a member of the Bar of the Supreme Court of the United States.
Xi

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date:

9/14/2020

(Type or print) Name

Firm

Brian M. Affrunti
14 Mr.
0 Ms.

0 Mrs.

Burke, Williams & Sorensen, LLP

Address

60 S. Market Street, Suite 1000

City & State

San Jose, CA
408.606.6300

Phone

0 Miss

Zip 95113

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc* Michael Alan Bruzzone

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

